  Quick Response Evaluation Report




Sanctioned Medical Providers and
  Medical Evidence of Record




      A-01-13-23064| February 2013
MEMORANDUM


Date:      February 8, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)

           The attached final quick response evaluation presents the results of our review. Our objective
           was to determine the feasibility of using the Department of Health and Human Services, Office
           of Inspector General’s List of Excluded Individuals and Entities to screen medical evidence of
           record providers used by the Social Security Administration.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Summary of Sanctioned Medical Providers and Medical
Evidence of Record
A-01-13-23064
February 2013                                                                                 Office of Audit

Objective                                 Our Findings

To determine the feasibility of using     The statutory requirement for exclusions did not apply to SSA
the Department of Health and Human        because the Agency did not provide or pay for health benefits, and
Services (HHS), Office of Inspector       screening MER providers with the LEIE would not be productive
General’s (OIG) List of Excluded          because
Individuals and Entities (LEIE) to
screen medical evidence of record         •   our limited testing identified only three SMPs in Alaska, and
(MER) providers used by the Social            none received payments from SSA;
Security Administration (SSA).
                                          •   the Agency processes over 15 million MER requests to over
Background                                    500,000 providers, annually; and

HHS OIG has the authority to exclude      •   SSA’s MER files contain information for medical record
individuals and entities from federally       providers, whereas the LEIE contains information on medical
funded health care programs and               service providers.
maintains the LEIE—a list of all
excluded individuals and entities, also   Additionally, we identified legal and technical issues that SSA
known as sanctioned medical providers     should consider if it screens MER providers using the LEIE.
(SMP).
                                          The Social Security Act requires that HHS OIG exclude all
On October 3, 2012, SSA’s Office of       individuals and entities who meet certain criteria from participating
Disability Programs asked us to review    in any Federal health care program. Since SSA does not provide or
SMPs in SSA’s MER files.                  pay for health care services, these statutory requirements do not
                                          apply to the Agency.

                                          SSA has regulations to screen consultative examination (CE)
                                          providers who are excluded from participating in Federal programs
                                          or whose licenses have been revoked or suspended. The disability
                                          determination services (DDS) use the LEIE to screen CE providers,
                                          but SSA plans to pilot a new system for continuous monitoring in
                                          Fiscal Year 2013.

                                          We tested the number of SMPs in the Alaska MER provider file
                                          and identified three SMPs. The DDS did not issue any payments to
                                          these SMPs from January 2011 through November 2012.
                                          Additionally, excluding some MER providers from receiving
                                          payment might disadvantage claimants.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................1
     Statutory Requirement to Exclude .............................................................................................2
     Regulatory Requirement to Exclude ..........................................................................................2
     Federal Do Not Pay List ............................................................................................................3
     Testing the Number of SMPs in SSA’s MER Database ............................................................4
     Factors to Consider When Screening MER Providers Using the LEIE.....................................4
           Technical Factors to Consider in the MER Vendor File and SMP ......................................4
           Legal Factors to Consider ....................................................................................................5
Conclusions ......................................................................................................................................6
Appendix A – List of Excluded Individuals and Entities ........................................................... A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Major Contributors.............................................................................................. C-1




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

CE                   Consultative Examination

CMP                  Civil Monetary Penalty

DDS                  Disability Determination Services

DI                   Disability Insurance

HHS                  Department of Health and Human Services

LEIE                 List of Excluded Individuals and Entities

MER                  Medical Evidence of Record

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

SAM                  System for Award Management

SMP                  Sanctioned Medical Provider

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)
OBJECTIVE
Our objective was to determine the feasibility of using the Department of Health and Human
Services (HHS), Office of Inspector General’s (OIG) List of Excluded Individuals and Entities
(LEIE) to screen medical evidence of record (MER) providers used by the Social Security
Administration (SSA).

BACKGROUND
HHS OIG has the authority to exclude individuals and entities from federally funded health care
programs and maintains the LEIE—a list of all excluded individuals and entities, also known as
sanctioned medical providers (SMP). HHS OIG can exclude for a number of reasons, such as
individuals and entities convicted of Medicare or Medicaid fraud 1 (see Appendix A).

To make proper disability determinations, SSA authorizes disability determination services
(DDS) to purchase consultative examinations (CE) and MER from the claimants’ physicians or
other treating sources. 2 A CE is a physical or mental examination or test purchased from a
treating or other medical source for an individual at SSA's request and expense. MER includes
copies of medical evidence; medical history; medical opinions; treatment notes; laboratory
reports; and reports of medical procedures, such as X rays, operative and pathology reports,
consultative reports, and other technical information. SSA reimburses the DDS for 100 percent
of allowable reported expenditures up to its approved funding authorization.

On October 3, 2012, SSA’s Office of Disability Programs asked us to review SMPs in SSA’s
MER files. Therefore, we obtained HHS OIG’s November 2012 LEIE, and SSA provided the
file of MER providers for the Alaska DDS. We matched the files to determine how many SMPs
were in the MER provider file. We also contacted HHS OIG for information on the LEIE.
Additionally, we contacted SSA’s Offices of Disability Programs and Disability Determinations
to determine the amount the Agency paid the SMPs we identified. See Appendix B for our scope
and methodology.

RESULTS OF REVIEW
The statutory exclusions did not apply to SSA, and screening MER providers with the LEIE
would not be productive because of the limited success in identifying SMPs through the match.


1
 Social Security Act §§ 1128 and 1156, 42 U.S.C. §§ 1320a-7 and 1320c-5, provides the reasons for exclusion of
certain individuals and entities from participation in Medicare and State health care programs.
2
 SSA provides Disability Insurance and Supplemental Security Income payments to eligible individuals. Social
Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq. DDSs are State agencies that
determine disability under SSA’s criteria in each of the 50 States, the District of Columbia, and Puerto Rico. Social
Security Act §§ 221 (a)(2) and 1633 (a), 42 U.S.C. §§ 421 (a)(2) and 1383b(a). See also 20 C.F.R. §§ 404.1603(a)
and 416.1003(a). The term “State” is defined in Social Security Act § 1101(a)(1), 42 U.S.C. § 1301(a)(1).




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                         1
Additionally, we identified legal and technical issues that SSA should consider if it screens MER
providers using the LEIE.

Statutory Requirement to Exclude
Under the Social Security Act, HHS must exclude from participating in any Federal health care
program all individuals and entities that have a conviction for program-related crimes, patient
abuse, health care fraud, or controlled substances. 3 For purposes of exclusion, the term “federal
health care program” means (1) any plan or program that provides health benefits directly,
through insurance, or otherwise that is funded directly, in whole or in part, by the Government or
(2) any State health care program. 4

SSA administers two programs. The Old-Age, Survivors and Disability Insurance program
provides benefits to retired workers, disabled workers, and their survivors. 5 The Supplemental
Security Income program is a means-tested program designed to provide a monthly payment to
aged, blind, or disabled people with limited income and resources. 6 The Agency does not
provide or fund health benefits, and CE providers do not provide treatment during SSA-funded
examinations. 7 Therefore, as written, the statutory requirement to exclude certain individuals
and entities from participating in any Federal health care program does not apply to SSA.

Regulatory Requirement to Exclude
To promote program integrity, SSA’s regulations 8 prohibit DDSs from purchasing CEs from
medical providers

•      who are excluded, suspended, or barred from participating in Federal or federally assisted
       programs;




3
    Social Security Act § 1128, 42 U.S.C. § 1320a-7.
4
    Social Security Act § 1128B(f), 42 U.S.C. § 1320a-7b(f).
5
    Social Security Act §§ 202 (a) – (k), 42 U.S.C. §§ 402 (a) – (k).
6
    Social Security Act § 1611 et seq., 42 U.S.C. § 1382 et seq.
7
  If the CE discloses new diagnostic information or test results that reveal potentially life-threatening situations, the
DDS should forward a copy of the CE report to the claimant’s treating source. If the claimant does not have a
treating source, the DDS should advise the claimant to see a physician and inform him or her of any local welfare
agency or medical facility through which the required medical services may be obtained at no cost, if he or she is
financially unable to pay for such services. SSA, POMS, DI 22510.020 B.3, effective February 28, 2008.
8
    20 C.F.R. §§ 404.1503a and 416.903a.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                                 2
•      whose license to provide health care is lawfully revoked or suspended by any State licensing
       authority for reasons bearing on professional competence, professional conduct or financial
       integrity; or

•      who have surrendered such a license while formal disciplinary proceedings involving
       professional conduct are pending.

SSA identifies these providers as SMPs. However, DDSs may purchase MER from SMPs and
are directed to give the MER normal consideration when processing disability claims. 9

Even though the statutory exclusions do not apply to SSA, the Agency uses the LEIE to ensure
the integrity of the CE process. SSA instructs DDSs to review the LEIE and verify medical
licenses, credentials, and certifications with State medical boards before using the services of any
CE provider. 10 DDSs should also check current CE providers against the LEIE at least annually.
HHS OIG posts the LEIE monthly in a downloadable format on its Website. 11

We contacted HHS OIG for more information on the LEIE. Generally, State Medicaid agencies
decide exclusions based on their individual State laws and regulations. They submit their
exclusions to HHS OIG, which screens them and adds to the LEIE only those that meet the
Federal criteria for exclusion in the Social Security Act. Therefore, there may be individuals or
entities excluded from State Medicaid programs who do not appear on the LEIE.

Additionally, all exclusions on the LEIE appear in the Federal System for Award Management
(SAM), which was implemented in 2012. SAM contains information from the LEIE as well as
information about individuals whom a Federal agency has taken an action to exclude under the
non-procurement or procurement debarment and suspension system. Therefore, the SAM would
be a more complete list of exclusions because it may contain the exclusions provided by the
States.

Federal Do Not Pay List
In April 2012, the Office of Management and Budget (OMB) issued a memorandum announcing
a Federal Do Not Pay List. 12 This Web-based, single-entry access portal allows agencies to
access several data sources for exclusions from Federal payments, including the Death Master


9
 SSA, POMS, DI 39569.200 A, effective January 20, 2012; see also 20 C.F.R. §§ 404.1503a and 416.903a. In a
prior review, we found DDS procedures generally appeared adequate to ensure exclusion of SMPs from performing
CEs for disability determinations; see SSA OIG, Use of Sanctioned Medical Providers by Disability Determination
Services (A-07-99-24006), March 30, 2001.
10
     SSA, POMS, DI 39569.300 B2, effective January 20, 2012.
11
     HHS OIG Website: http://exclusions.oig.hhs.gov/.
12
     OMB, Reducing Improper Payments Through the “Do Not Pay List” (M-12-11), April 12, 2012.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                   3
File, Excluded Parties List System, Treasury’s Debt Check Database, and LEIE. Each Federal
agency was required to submit to OMB a plan for how it would use the Do Not Pay List by
August 31, 2012.

SSA submitted its plan to OMB on August 30, 2012. The Agency plans to pilot the use of
Continuous Monitoring Services in the Do Not Pay List to assist DDSs in screening CE
providers. The pilot will begin in Fiscal Year 2013, and SSA will evaluate the timeliness and
accuracy of CE provider verification and the ability to integrate the results with the DDS CE
providers.

Testing the Number of SMPs in SSA’s MER Database
We tested the feasibility of identifying SMPs in SSA’s databases of MER providers. We used
the Alaska DDS’ file of 8,671 MER providers because it was the only complete and readily
available DDS file. We matched these 8,671 MER providers against the LEIE of
53,214 exclusions nationwide and identified 3 SMPs in the Alaska MER provider file: a medical
doctor, chiropractor, and dentist.

We identified these three SMPs by comparing providers’ first and last names in both files. We
attempted to match the addresses in both files but found several false matches—instances where
a specific individual was on the LEIE, and their address matched the address of a clinic, foster
home, or nursing care facility in the MER vendor file. For example, we identified a physician in
the LEIE who had the same address as a correctional facility. The Alaska DDS file included the
correctional facility but not this physician because the DDS would write to the facility for their
medical records, not to the physician directly.

We provided the names and addresses of the three SMPs in the Alaska MER provider file to
SSA. The Agency informed us the DDS issued no payments for either MER or CEs to these
three SMPs from January 2011 through November 2012.

Factors to Consider When Screening MER Providers Using the LEIE
There are technical and legal factors SSA would need to address before screening MER
providers using the LEIE.

Technical Factors to Consider in the MER Vendor File and SMP
•    As of December 2012, the LEIE may not have been all-inclusive. A 2008 HHS OIG report
     stated about two-thirds of medical providers sanctioned in 2004 and 2005 were not found in
     the LEIE. 13 HHS OIG has not done any further testing of the LEIE since this time.



13
  HHS OIG, State Medicaid Agency Referrals to the Office of Inspector General Exclusions Program
(OEI-OI-06-00301), August 5, 2008.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                        4
       However, as previously discussed, this may be the result of different exclusion criteria for
       Federal health care agencies and State Medicaid agencies.

•      Success in matching all MER providers with the LEIE is not likely. The LEIE generally
       contains the names of sanctioned medical providers, while the MER vendor file is not likely
       to include specific doctors who belong to clinics and hospital’s private practices. Hospitals
       or similar institutions that employ hundreds of individuals may only have one source for
       records, and this source would be listed in the MER vendor file.

•      SMPs may move on and off the LEIE. Providers move on and off the LEIE depending on
       appeals of the sanctioning so a claimant’s treating source may be on it one quarter and off the
       next.

•      According to SSA, checking MER sources against the LEIE would be costly. Each year,
       SSA and the DDSs request more than 15 million health records from over 500,000 of these
       providers. The administrative cost of having DDS personnel check the LEIE for each of
       these sources would be prohibitive. Additionally, if the ability to obtain existing medical
       evidence is compromised, the Agency may need to purchase more CEs to support medical
       determinations.

•      Disability applicants may be disadvantaged. Excluding payment for MER may jeopardize an
       applicant’s claim if his/her physician or treating source refuses to provide MER because SSA
       will not pay for it. The claimant may have to pay for evidence to be included with the claim
       or the claim may be adjudicated based on a CE, which is only a snapshot of a claimant’s
       condition during one examination.

Legal Factors to Consider
Under the Social Security Act, SSA is required to consider all evidence available when
determining whether an individual qualifies for disability benefits. The Agency must make
every reasonable effort to obtain evidence from the individual’s treating physician and may
provide reasonable payment for this evidence. 14 Regulations state that SSA must accept MER
supplied by individuals on the LEIE. 15

Additionally, a MER request may not be considered a sanctioned service because it is not a
medical service. While a CE is a contractual service to provide a medical examination, a request
for existing medical evidence is not prohibited under this authority. 16




14
     Social Security Act §§ 223 (d)(5)(A) and (B), 42 U.S.C. § 423(d)(5)(A) and (B).
15
     20 C.F.R. §§ 404.1503a and 416.903a.
16
     SSA, POMS, DI 39569.200 A, effective January 20, 2012.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                            5
CONCLUSIONS
The statutory requirement for exclusions did not apply to SSA because the Agency did not
provide or pay for health benefits, and screening MER providers with the LEIE would not be
productive because

•   our limited testing identified only three SMPs in Alaska, and none received payments from
    SSA;

•   the Agency processed over 15 million MER requests to over 500,000 providers annually; and

•   SSA’s MER files contained information for providers of medical records, whereas the LEIE
    contains information on providers of medical services.

Additionally, we identified legal and technical issues that should be considered if SSA were to
screen MER providers using the LEIE.

The Social Security Act requires that HHS OIG exclude all individuals and entities who meet
certain criteria from participating in any Federal health care program. Since SSA does not
provide or fund health care services, these statutory requirements do not apply to the Agency.

SSA does have regulations to screen CE providers who are excluded from participating in
Federal programs or whose licenses have been revoked or suspended. The DDSs use the LEIE
to screen CE providers, but SSA plans to pilot a new system for continuous monitoring in Fiscal
Year 2013.

We tested the number of SMPs in the Alaska MER provider file and identified three SMPs. The
DDS did not issue any payments to these SMPs from January 2011 through November 2012.
Additionally, excluding some MER providers from receiving payment might disadvantage
claimants.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                       6
                                       APPENDICES




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)
Appendix A – LIST OF EXCLUDED INDIVIDUALS AND
             ENTITIES                         1




The Department of Health and Human Services (HHS), Office of Inspector General (OIG) has
the authority to exclude individuals and entities from federally funded health care programs and
maintains the List of Excluded Individuals and Entities (LEIE). Anyone who hires an individual
or entity on the LEIE may be subject to civil monetary penalties (CMP).

Exclusions are imposed for a number of reasons.

        Mandatory Exclusions: HHS OIG is legally required to exclude from participation in
all Federal health care programs individuals and entities convicted of the following types of
criminal offenses: Medicare or Medicaid fraud as well as any other offenses related to the
delivery of items or services under Medicare, Medicaid, State Children’s Health Insurance
Program, or other State health care programs; patient abuse or neglect; felony convictions for
other health care-related fraud, theft, or other financial misconduct; and felony convictions
relating to unlawful manufacture, distribution, prescription, or dispensing of controlled
substances.

        Permissive Exclusions: HHS OIG has discretion to exclude individuals and entities on a
number of grounds, including misdemeanor convictions related to health care fraud other than
Medicare or a State health program; fraud in a program (other than a health care program)
funded by any Federal, State, or local government agency; misdemeanor convictions related to
the unlawful manufacture, distribution, prescription, or dispensing of controlled substances;
suspension, revocation, or surrender of a license to provide health care for reasons bearing on
professional competence, professional performance, or financial integrity; provision of
unnecessary or substandard services; submission of false or fraudulent claims to a Federal health
care program; engaging in unlawful kickback arrangements; and defaulting on health education
loan or scholarship obligations; and controlling a sanctioned entity as an owner, officer, or
managing employee.

To avoid CMP liability, health care entities need to routinely check the LEIE to ensure it does
not contain new hires and current employees. The effects of an exclusion are outlined in the
Special Advisory Bulletin on the Effect of an Exclusion, but the primary effect is that no
payment will be provided for any items or services furnished, ordered, or prescribed by an
excluded individual or entity. This includes Medicare, Medicaid, and all other Federal plans and
programs that provide health benefits funded directly or indirectly by the United States (other
than the Federal Employees Health Benefits Plan).




1
    The information in this appendix is from https://oig.hhs.gov/exclusions/background.asp, December 12, 2012.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                      A-1
HHS OIG’s exclusions process is governed by regulations that implement sections of the Social
Security Act. When an individual or entity gets a Notice of Intent to Exclude, it does not
necessarily mean they will be excluded. HHS OIG will consider all material provided by the
person who received the Notice in its decision. All exclusions implemented by HHS OIG may
be appealed to an HHS administrative law judge, and any adverse decision may be appealed to
the HHS Departmental Appeals Board. Judicial review in Federal court is also available after a
final decision by the Appeals Board.

Table A–1 lists the authorities for exclusion. 2

                                      Table A–1: Exclusion Authorities
    Social Security Act             42 U.S.C.                                  Amendment
                                                  Scope
          3
§ 1128                        § 1320a-7            Scope of exclusions imposed by the OIG expanded
                                                   from Medicare and State health care programs to
                                                   all Federal health care programs, as defined in §
                                                   1128B(f)(1).
                                            Mandatory Exclusions
§ 1128(a)(1)                  § 1320a-7(a)(1)      Conviction of program-related crimes. Minimum
                                                   Period: 5 years.
§ 1128(a)(2)                  § 1320a-7(a)(2)      Conviction relating to patient abuse or neglect.
                                                   Minimum Period: 5 years.
§ 1128(a)(3) 4                § 1320a-7(a)(3)      Felony conviction relating to health care fraud.
                                                   Minimum Period: 5 years.
§ 1128(a)(4)4                 § 1320a-7(a)(4)      Felony conviction relating to controlled substance.
                                                   Minimum.
§ 1128(c)(3) 5-(G)(i)3        § 1320a-             Conviction of two mandatory exclusion offenses.
                              7(c)(3)(G)(i)        Minimum period: 10 Years.
§ 1128(c)(3)5-(G)(ii)3        § 1320a-             Conviction on three or more occasions of
                              7(c)(3)(G)(ii)       mandatory exclusion offenses. Permanent
                                                   Exclusion.


2
    The information in Table A–1 is from https://oig.hhs.gov/exclusions/authorities.asp, December 12, 2012.
3
 The effective date for the amendment to section 1128, and the new provisions section 1128(c)(3)(G)(i) and (ii) is
August 5, 1997.
4
 The effective date of the new provisions sections 1128(a)(3) and 1128(a)(4), and the amended provisions section
1128(b)(1)(A), (B), and section 1128(b)(3) is August 22, 1996. These provisions apply to offenses occurring on or
after that date.
5
    The effective date for the amendments to sections 1128(b)(15), 1128(c)(3), and 1156 is January 1, 1997.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                     A-2
    Social Security Act             42 U.S.C.                          Amendment
                                           Permissive Exclusions
§ 1128(b)(1)(A)3              § 1320a-7(b)(1)(A) Misdemeanor conviction relating to health care
                                                   fraud. Minimum Period: 3 years.
§ 1128(b)(1)(B)4              § 1320a-7(b)(1)(B) Conviction relating to fraud in non- health care
                                                   programs. Minimum Period: 3 years.
§ 1128(b)(2)                  § 1320a-7(b)(2)      Conviction relating to obstruction of an
                                                   investigation. Minimum Period: 3 years.
§ 1128(b)(3)4                 § 1320a-7(b)(3)      Misdemeanor conviction relating to controlled
                                                   substance. Minimum Period: 3 years.
§ 1128(b)(4)                  § 1320a-7(b)(4)      License revocation or suspension. Minimum
                                                   Period: No less than the period imposed by the
                                                   State licensing authority.
§ 1128(b)(5)                  § 1320a-7(b)(5)      Exclusion or suspension under Federal or State
                                                   health care program. Minimum Period: No less
                                                   than the period imposed by Federal or State health
                                                   care program.
§ 1128(b)(6)                  § 1320a-7(b)(6)      Claims for excessive charges, unnecessary
                                                   services, services that fail to meet professionally
                                                   recognized standards of health care, or an HMO’s
                                                   failure to furnish medically necessary services.
                                                   Minimum Period: 1 year.
§ 1128(b)(7)                  § 1320a-7(b)(7)      Fraud, kickbacks, and other prohibited activities.
                                                   Minimum Period: None.
§ 1128(b)(8)                  § 1320a-7(b)(8)      Entities controlled by a sanctioned individual.
                                                   Minimum Period: Same as length of individual's
                                                   exclusion.
§ 1128(b)(8)(A) 6             § 1320a-7(b)(8)(A) Entities controlled by a family or household
                                                   member of an excluded individual and where there
                                                   has been a transfer of ownership/control.
                                                   Minimum Period: Same as length of an
                                                   individual's exclusion.
§ 1128(b)(9), (10),           § 1320a-7(b)(9),     Failure to disclose required information, supply
and (11)                      (10), and (11)       requested information on subcontractors and
                                                   suppliers, or supply payment information.
                                                   Minimum Period: None.
§ 1128(b)(12)                 § 1320a-7(b)(12)     Failure to grant immediate access. Minimum
                                                   Period: None.


6
    The effective date for the amendment to section 1128(b)(8)(A) is September 19, 1997.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                        A-3
 Social Security Act               42 U.S.C.                                 Amendment
§ 1128(b)(13)                 § 1320a-7(b)(13)           Failure to take corrective action. Minimum
                                                         Period: None.
§ 1128(b)(14)                 § 1320a-7(b)(14)           Default on health education loan or scholarship
                                                         obligations. Minimum Period: Until default has
                                                         been cured or obligations have been resolved to
                                                         Public Health Service's (PHS) satisfaction.
§ 1128(b)(15)5                § 1320a-7(b)(15)           Individuals controlling a sanctioned entity.
                                                         Minimum Period: Same period as entity.
§ 1128(b)(16) 7               § 1320a-7(b)(16)           Making false statement or misrepresentations of
                                                         material fact. Minimum period: None.
§ 11565                       § 1320c-5                  Failure to meet statutory obligations of
                                                         practitioners and providers to provide' medically
                                                         necessary services meeting professionally
                                                         recognized standards of health care (Peer Review
                                                         Organization findings). Minimum Period: 1 year.




7
    The effective date for the new provision section 1128(b)(16) is the date of enactment, March 23, 2010.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                                  A-4
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Administration’s (SSA) regulations,
    rules, and procedures.

•   Reviewed Social Security Administration Office of the Inspector General reports: Use of
    Sanctioned Medical Providers by State Disability Determination Services
    (A-07-99-24006), March 2001, Administrative Costs Claimed by the Alaska Disability
    Determination Services (A-09-05-15025), July 2005, and Health Information Technology
    Provided by Beth Israel Deaconess Medical Center and MedVirginia (A-01-11-11117),
    October 2011.

•   Reviewed the Department of Health and Human Services (HHS) Office of Inspector General
    (OIG), report on State Medicaid Agency Referrals to the Office of Inspector General
    Exclusions Program (OEI-01-06-00301), August 2008.

•   Obtained the November 2012 HHS OIG List of Excluded Individuals and Entities (LEIE),
    and SSA provided the file of medical evidence of record (MER) providers from the Alaska
    DDS. We then matched the LEIE against the file of Alaska MER providers to determine
    how many MER providers were sanctioned medical providers (SMP).

•   Obtained information from SSA payments for MER and CEs from the SMPs we identified in
    Alaska.

•   Obtained information from SSA’s Offices of Disability Programs and Disability
    Determinations on SSA’s use of the LEIE and plans for a pilot to automate screening of CE
    providers.

•   Obtained information on the LEIE from the HHS OIG.

We conducted our review from October through December 2012 in Boston, Massachusetts. The
principal entity audited was SSA's Office of Disability Determinations under the Office of the
Deputy Commissioner of Operations. We did not test the data reliability of the HHS OIG LEIE
file, but relied on a prior review of the file which is noted in the Results of Review section of this
report. 1 We also did not test the reliability of the Alaska MER file, but relied on a prior review




1
 HHS OIG, State Medicaid Agency Referrals to the Office of Inspector General Exclusions Program
(OEI-01-06-00301), August 2008.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                       B-1
of this data. 2 We conducted our review in accordance with the Council of the Inspectors General
on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.




2
 SSA OIG, Administrative Costs Claimed by the Alaska Disability Determination Services (A-09-05-15025),
July 7, 2005.




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)                               B-2
Appendix C – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

Katie Greenwood, Senior Auditor




Sanctioned Medical Providers and Medical Evidence of Record (A-01-13-23064)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
